No. 20-107

 

 

IN THE

Supreme Court of the United States

CEDAR POINT NURSERY AND
FOWLER PACKING COMPANY, INC.,

Petitioners,
v.

VICTORIA HASSID IN HER OFFICIAL CAPACITY AS CHAIR OF
THE AGRICULTURAL LABOR RELATIONS BOARD, ET AL.,

Respondents.

On Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

BRIEF FOR AMICUS CURIAE
AMERICANS FOR PROSPERITY FOUNDATION
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,929 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 5, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
